APPENDIX

APPENDIX B
B-1
Case: 20-2262

Document: 18

Filed: 07/15/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
July 15, 2020
Before
DIANE P. WOOD, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
AMY J. ST. EVE, Circuit Judge
DALE HARTKEMEYER,
Plaintiff - Appellant
and
No. 20-2262

FATHER MARK O'KEEFE,
Intervening Plaintiff - Appellant
v.
WILLIAM P. BARR, Attorney General of the United States, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: 2:20-cv-00336-JMS-DLP
Southern District of Indiana, Terre Haute Division
District Judge Jane Magnus-Stinson

The following are before the court:
1. MOTION TO STAY EXECUTIONS PENDING APPEAL, filed by counsel
for the appellants on July 14, 2020.
2. OPPOSITION TO MOTION TO STAY EXECUTIONS PENDING APPEAL,
filed by counsel for the appellees on July 15, 2020.
3. APPELLANTS’ REPLY IN SUPPORT OF MOTION TO STAY EXECUTIONS
PENDING APPEAL, filed by counsel for the appellants on July 15, 2020.
IT IS ORDERED that the Motion to stay the executions is DENIED.

APPENDIX C
C-1
Case 2:20-cv-00336-JMS-DLP Document 84 Filed 07/14/20 Page 1 of 8 PageID #: 892

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
DALE HARTKEMEYER,

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.
WILLIAM P. BARR, et al.
Defendants.

FATHER MARK OKEEFE,
Intervenor Plaintiff.

No. 2:20-cv-00336-JMS-DLP

Order Denying Motion for Preliminary Injunction
Plaintiff Dale Hartkemeyer filed this civil rights action challenging the defendants'
scheduling of Wesley Purkey's execution for July 15, 2020 during the COVID-19 pandemic.
Mr. Hartkemeyer, who is Mr. Purkey's minister of record, alleges that the scheduled execution
violates the Religious Freedom and Restoration Act of 1993 ("RFRA") and the Administrative
Procedure Act ("the APA") as it places him at serious personal risk due to potential exposure to
the coronavirus.
Intervenor-plaintiff Father Mark O'Keefe challenges the defendants' scheduling of Dustin
Lee Honken's execution for July 17, 2020. Fr. O'Keefe, who is Mr. Honken's minister of record,
likewise alleges that the scheduled execution violates RFRA and the APA, again citing the
coincidence of the execution and the COVID-19 pandemic.
I.

Background

A federal jury found Mr. Purkey guilty in 2003 of interstate kidnapping, rape, and murder,
and he was sentenced to death. United States v. Purkey, 428 F.3d 738, 744 (8th Cir. 2005).
1

C-2
Case 2:20-cv-00336-JMS-DLP Document 84 Filed 07/14/20 Page 2 of 8 PageID #: 893

A federal jury found Mr. Honken guilty in 2004 of witness tampering, soliciting the murder
of a witness, drug conspiracy murder, and Continuing Criminal Enterprise (CCE) murder, and he
was sentenced to death. United States v. Honken, 541 F.3d 1146, 1148–49 (8th Cir. 2008).
On July 25, 2019, at the direction of defendant Attorney General William Barr, the
Department of Justice set execution dates for five federal inmates, including Mr. Purkey and
Mr. Honken. Those executions were stayed in November 2019 by a preliminary injunction in the
United States District Court for the District of Columbia. In re Matter of Federal Bureau of
Prisons' Execution Protocol Cases, 2019 WL 6691814, at *8 (D.D.C. Nov. 20, 2019). On April 7,
2020, the District of Columbia Circuit Court of Appeals vacated the preliminary injunction. In re
Matter of Federal Bureau of Prisons' Execution Protocol Cases, 955 F.3d 106, 113 (D.C. Cir.
2020), reh'g denied, 955 F.3d 106 (May 15, 2020), cert. denied, Bourgeois v. Barr, 2020 WL
3492763 (Mem. Op.) (June 29, 2020).
Meanwhile, the novel coronavirus ("COVID-19") has been spreading in the United States
since early 2020. As of 12:15 p.m. on July 12, 2020, there were 3,236,130 reported cases in the
United States, including 394,224 cases in the past week. Centers for Disease Control and
Prevention, Covid Data Tracker, https://www.cdc.gov/covid-data-tracker/#cases (last visited
July 12, 2020). 134,572 people have died from the virus in the United States. Id. In Indiana, there
have been 51,612 confirmed cases, and 2,567 people have died. Indiana COVID-19 Dashboard,
https://www.coronavirus.in.gov/2393.htm (last visited July 12, 2020).
On June 15, 2020, with the Bureau of Prisons ("BOP") essentially locked down due to the
COVID-19 pandemic, the Department of Justice announced four execution dates, including
Mr. Purkey's on July 15, 2020, and Mr. Honken's on July 17, 2020. See Press Release, Dep't of
Justice, "Executions Scheduled for Four Federal Inmates Convicted of Murdering Children" (June

2

C-3
Case 2:20-cv-00336-JMS-DLP Document 84 Filed 07/14/20 Page 3 of 8 PageID #: 894

15, 2020), https://www.justice.gov/opa/pr/executions-scheduled-four-federal-inmates-convictedmurdering-children.
On July 11, 2020, four days before Mr. Purkey's scheduled execution and six days before
Mr. Honken's, a staff member at FCC Terre Haute tested positive for COVID-19 after visiting with
individuals who also tested positive. Dkt. 77-1 at ¶¶ 4−5 (Rick Winter Declaration July 12, 2020).
This officer left work on July 8 to self-quarantine. Id. at ¶ 4. Between his exposure and his
departure, he (1) "attended the law enforcement meeting with outside law enforcement in
preparation for the scheduled executions"; (2) "attended a meeting regarding the handling of
demonstrators at the scheduled executions"; and (3) "attended to an issue at the SCU," where
Mr. Purkey and Mr. Honken are presently held. Id. at ¶ 6. He "did not wear a mask at all times
during this period." Id. at ¶ 7. While this staff member did not come into contact with any members
of the execution protocol team, the BOP has not yet completed contact tracing protocols. Id. at ¶ 9.
And, despite this positive test, the BOP has not changed its plan to forego testing the execution
protocol team. Dkt. 33-1 at ¶ 7 (Rick Winter Declaration July 6, 2020) ("BOP has no plans to
conduct COVID testing on individuals involved in the execution in advance of the execution.");
dkt. 77-1 ("BOP will continue to perform the mitigation measures identified in my prior
declaration dated July 6.").
II.

Standard for Preliminary Injunction

In deciding whether to stay an execution, the Court must consider: "(1) whether the stay
applicant has made a strong showing that he is likely to succeed on the merits; (2) whether the
applicant will be irreparably injured absent a stay; (3) whether issuance of the stay will
substantially injure the other parties interested in the proceeding; and (4) where the public interest
lies." Nken v. Holder, 556 U.S. 418, 434 (2009). "The first two factors . . . are the most critical." Id.

3

C-4
Case 2:20-cv-00336-JMS-DLP Document 84 Filed 07/14/20 Page 4 of 8 PageID #: 895

III.
A.

Discussion

The Plaintiffs Have Not Shown More than a Negligible Likelihood of Success
on Their RFRA Claims.

As the statute itself explains, Congress enacted RFRA "to restore the compelling interest
test as set forth in Sherbert v. Verner, 374 U.S. 398 (1963) and Wisconsin v. Yoder, 406 U.S. 205
(1972) and to guarantee its application in all cases where free exercise of religion is substantially
burdened." 42 U.S.C. § 2000bb(b)(1). Courts evaluate RFRA claims using a four-part test.
The plaintiff must show that a challenged government action (1) substantially burdens
(2) the plaintiff's sincerely held religious belief. Burwell v. Hobby Lobby Stores, Inc., 573 U.S.
682, 691−92 (2014). If the plaintiff makes the required showings, then the defendant must show
that the government action (3) is necessitated by a compelling governmental interest and
(4) constitutes the least restrictive means to satisfy that interest. Id.
The defendants do not dispute for purposes of this motion that Mr. Hartkemeyer's and
Fr. O'Keefe's sincerely held religious beliefs require them to attend to the spiritual needs of
Mr. Purkey and Mr. Honken, respectively, as these men face execution. The defendants do,
however, argue that the government has imposed no substantial burden on the plaintiffs' free
exercise of those beliefs because the plaintiffs are "not themselves the subject of government
regulation." Dkt. 33 at 11; id. at 13 ("[T]he only impediment Rev. Hartkemeyer identifies—the
global pandemic—is not one of the Government's making.").
To show a government-created substantial burden, a plaintiff must identify some
government action with a "tendency to coerce individuals into acting contrary to their religious
beliefs." Lyng v. Nw. Indian Cemetery Protective Ass'n, 485 U.S. 439, 450 (1988). The mere
scheduling of an execution imposes no obligation or restriction on the religious advisor whom the
condemned prisoner has selected to attend. And the plaintiffs' claims as stated in their complaint
4

C-5
Case 2:20-cv-00336-JMS-DLP Document 84 Filed 07/14/20 Page 5 of 8 PageID #: 896

rest entirely on the setting of Mr. Purkey's and Mr. Honken's execution dates during the pandemic.
Accordingly, the plaintiffs have not shown more than a negligible likelihood of demonstrating a
substantial burden on their religious beliefs, as required to prevail on their RFRA claims.
The Court notes that the plaintiffs, in litigating their motions for preliminary injunction,
have increasingly focused on the burdens imposed on them as a result of alleged inadequacies of
protective measures under the regulations and protocols governing their behavior—and requiring
various interactions with prison staff—during the execution process. See, e.g., dkt. 82 at 4 ("The
Government’s failures to ensure compliance with its only limited COVID-19 protocols are an
equal cause for concern.")1. But the plaintiffs' complaints allege only that the scheduling of
executions violated RFRA and the APA. They are not seeking an injunction requiring
defendants to provide any additional protective measures for plaintiffs' personal safety.
Indeed, the only relief they seek is postponement of Mr. Purkey's and Mr. Honken's executions
until a treatment or vaccine for COVID-19 is widely available. Given recent developments, see
Peterson v. Barr, --- F.3d ----, ----, 2020 WL 3955951, at *2 (7th Cir. 2020) ("[I]f the BOP
observes the minimal requirements in the regulation . . . then it has the unconstrained discretion
to choose a date for the execution."); Barr v. Lee, 591 U.S. ---, ---, No. 20A8 (July 14, 2020) (per
curiam), the likelihood of success on this remedy seems vanishingly small. If the plaintiffs wish to
litigate some other claim, or seek different relief, they must first amend their complaints.
B.

The Plaintiffs Have Not Shown More than a Negligible Likelihood of Success
on Their APA Claims.

"The APA 'sets forth the procedures by which federal agencies are accountable to the public
and their actions subject to review by the courts.'" Dep't of Homeland Sec. v. Regents of the Univ.

1

The Court is mindful that plaintiffs were not advised by the defendants as to the COVID-19
precautionary measures for spiritual advisors until after the initial complaint was filed.
5

C-6
Case 2:20-cv-00336-JMS-DLP Document 84 Filed 07/14/20 Page 6 of 8 PageID #: 897

of California, 140 S. Ct. 1891, 1905 (2020) (quoting Franklin v. Massachusetts, 505 U.S. 788, 796
(1992)). "A person suffering legal wrong because of agency action, or adversely affected or
aggrieved by agency action within the meaning of a relevant statute, is entitled to judicial review
thereof." 5 U.S.C. § 702.
When an agency action is subject to review, a district court may "hold [it] unlawful and set
[it] aside" for a number of reasons. 5 U.S.C. § 706(2). The plaintiffs ask the Court to hold unlawful
and set aside the government's scheduling of Mr. Purkey's execution on July 15, 2020, and
Mr. Honken's on July 17, 2020, as arbitrary and capricious in violation of 5 U.S.C. § 706(2)(A).
The Seventh Circuit recently held that, aside from specific regulations upon which the
plaintiffs do not rely, the BOP has "unconstrained discretion" to set an execution date. Peterson,
--- F.3d at ----, 2020 WL 3955951, at *2. The plaintiffs therefore have no more than a negligible
chance of success in showing that the defendants violated the APA in choosing Mr. Purkey's and
Mr. Honken's execution dates.
C.

Remaining Preliminary Injunction Factors

Given the plaintiffs' slim chances of success, the Court need not address the other factors
for granting an injunction. See GEFT Outdoors, LLC v. City of Westfield, 922 F.3d 357, 364
(7th Cir. 2019) (likelihood of success is a "threshold requirement[]," and a court must deny the
preliminary injunction if the plaintiff fails to satisfy it).

IV.

Conclusion

Mr. Hartkemeyer's motion for preliminary injunction, dkt. [6], and Fr. O'Keefe's motion for
preliminary injunction, dkt. [60], are denied.
IT IS SO ORDERED.
Date: 7/14/2020

6

C-7
Case 2:20-cv-00336-JMS-DLP Document 84 Filed 07/14/20 Page 7 of 8 PageID #: 898

Distribution:
Michelle Behrens
ROPES & GRAY LLP
michelle.behrens@ropesgray.com
Maria G. Calvet
ROPES & GRAY LLP
maria.calvet@ropesgray.com
Abigail A. Clapp
GREENBERG TRAURIG LLP
clappa@gtlaw.com
John T. Dey
ROPES & GRAY LLP
john.dey@ropesgray.com
David C. Fathi
NATIONAL PRISON PROJECT OF THE ACLU
dfathi@npp-aclu.org
Amy Fly
American Civil Liberties Union
afly@aclu.org
Kyle R. Freeny
Greenberg Traurip, LLP
2101 L Street, N.W.
Washington, DC 20027
Douglas Hallward-Driemeier
ROPES & GRAY LLP
douglas.hallward-driemeier@ropesgray.com
Michael M. Kraus
Greenberg Traurig, LLP
90 South Seventh Street
Suite 3500
Minneapolis, MN 55402
Howard Baker Kurrus
H. Baker Kurrus, PLLC
bkurrus@aol.com
7

C-8
Case 2:20-cv-00336-JMS-DLP Document 84 Filed 07/14/20 Page 8 of 8 PageID #: 899

Daniel Mach
AMERICAN CIVIL LIBERTIES UNION
dmach@aclu.org
Cassandra Stubbs
AMERICAN CIVIL LIBERTIES UNION
cstubbs@aclu.org
Heather L. Weaver
AMERICAN CIVIL LIBERTIES UNION
hweaver@aclu.org
Jennifer Wedekind
American Civil Liberties Union Foundation
jwedekind@aclu.org
Shelese M. Woods
UNITED STATES ATTORNEY'S OFFICE (Indianapolis)
shelese.woods@usdoj.gov

8

